f .-t'-c*

No.

IN THE
SUPREME COURT OF THE UNITED STATES

ALEX ALBERTO CASTRO — PETITIONER
VS.
UNITED STATES OF AMERICA — RESPONDENT

PROOF OF SERVICE
I.

nhctiASt. fi. (2.0 T A 3^

____, do swear or declare that on this date,
, 20^as required by Supreme Court Ride 291 have served
auea-sr 2-5
the enclosed MOTION FOR LEAVE TO PROCEED IN FORMA PAUPERIS and
PETITION FOR A WRIT OF CERTIORARI on each party to the above proceeding or
that; party’s counsel, and on every other person required to be served, by depositing an
envelope containing the above documentsin the United Stat es mailproperly addressed to
each of them and with first-class postage prepaid, or by delivery to a third-party
commercial carrier for delivery within 3 calendar days.
The names and addresses of those served are as follows1
Stephen P. Baker
Assistant Unites States Attorney
P.O. Box 208
Grand Ranids. MI 495010208

Solici tor General of the United States
Room 5616
Department; of Justice
950 Pennsylvania Ave., N.W.
Washington. D. C. 20530-0001

I declare under penalty of perjury that the foregoing is true and correct.
Executed on

, 20 ZC

(Signatur

